March 31, 2007

KATHLEEN A. AINSWORTH
VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT: Audit Report – Stamps on Consignment Program
         (Report Number DR-AR-07-003)

This report presents the results of our audit of the national Stamps on Consignment (SOC)
Program (Project Number 06XG041DR000). The report responds to a request from the
Vice President, Delivery and Retail, for audit assistance from the U.S. Postal Service
Office of Inspector General (OIG) to evaluate delivery and signature confirmation
deficiencies for stamp stock shipped to consignees under the national SOC Program.

Overall, Postal Service officials properly managed the national SOC Program. Specifically,
Postal Service officials properly accounted for stamp inventory under consignment with
American Banknote Company (ABN). However, ABN deducted some unapproved
transactions from their stamp accountability. In addition; delivery personnel did not always
confirm proof of delivery of stamp stock to consignees; and some consignees did not
always make timely payments for stamp stock received. Our audit identified $310,608 in
questioned costs and $67,337 in unrecoverable revenue, which we will report in our
Semiannual Report to Congress.

We recommended that management assess the need to adjust ABN’s accountability;
request ABN officials to follow key contract provisions; and develop an action plan to
approve and process future adjustments to ABN’s stamp accountability. We also
recommended management request ABN officials to inform consignees of the importance
of signing for stamp shipments; explore ideas that will encourage consignees to make
timely payments; and request ABN officials to pay the Postal Service for accounts that are
past due. In addition, we made recommendations for management to coordinate with area
delivery supervisors to ensure delivery scanning, require signature confirmation training for
delivery personnel at postal facilities, and train delivery supervisors to monitor proof of
delivery errors.

Management agreed with our findings and recommendations, including the $310,608 in
questioned costs and $67,337 in unrecoverable revenue, and has planned initiatives to
address the issues identified in this report. Management’s comments and our evaluation
of these comments are included in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation the recommendations
can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
Director, Delivery, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: All Area Vice Presidents
    Janet L. Webster
    James Kiser
    Deborah A. Kendall
Stamps on Consignment Program                                      DR-AR-07-003



                                TABLE OF CONTENTS

 Executive Summary                                                           i

 Part I                                                                     1

 Introduction                                                               1

    Background                                                              1
    Objective, Scope, and Methodology                                       2
    Prior Audit Coverage                                                    3

 Part II                                                                    5

 Audit Results                                                              5

 Proper Management of Stamps on Consignment Program

     Stamp Accountability                                                   5
     Recommendations                                                        7
     Management’s Comments                                                  7
     Evaluation of Management’s Comments                                    8

     Delivery and Signature Confirmations                                   8
     Recommendations                                                       11
     Management’s Comments                                                 11
     Evaluation of Management’s Comments                                   12

     Payments From Consignees                                              12
     Recommendations                                                       13
     Management’s Comments                                                 14
     Evaluation of Management’s Comments                                   14

 Appendix A. Calculation of Unsupported                                    15
             Questioned Costs

 Appendix B. Comparison of the Value of Shipments Without Proper           16
             Proof of Delivery to the Total Value of Shipments

 Appendix C. Calculation of Unrecoverable and Recoverable                  18
             Questioned Costs

 Appendix D. Calculations of Unrecoverable Revenue                         19
Stamps on Consignment Program                               DR-AR-07-003




 Appendix E. Consignee Accounts Past Due for Over 60 days           20

 Appendix F. Management’s Comments                                  21
Stamps on Consignment Program                                                   DR-AR-07-003



                                EXECUTIVE SUMMARY
 Introduction               This report presents the results of our audit of the national
                            Stamps on Consignment (SOC) Program. Our objective
                            was to determine whether the U.S. Postal Service properly
                            managed the program. The report responds to a request
                            from the Vice President, Delivery and Retail, to review
                            delivery and signature confirmation deficiencies for stamp
                            stock shipped to consignees.

 Results in Brief           Overall, Postal Service officials properly managed the
                            national SOC Program. Specifically, Postal Service officials
                            properly accounted for stamp inventory under consignment
                            with American Banknote Company (ABN). However, ABN
                            deducted some unapproved transactions from their stamp
                            accountability. In addition, delivery personnel did not
                            always confirm proof of delivery of stamp stock to
                            consignees and some consignees did not always make
                            timely payments for stamp stock received.

                            These conditions existed primarily because ABN and Postal
                            Service officials did not fully comply with provisions of the
                            SOC contract to account for lost/missing shipments. Postal
                            Service employees did not follow the prescribed procedures
                            to obtain proof of delivery. Also, consignees have no
                            incentive to make timely payments for stamp stock.

                            When officials do not follow contract provisions that address
                            accounting for stamp inventory under consignment, they
                            maintain stamp accountability that reflects inaccurate
                            balances. When stamp shipments to consignees do not
                            have proper proof of delivery and the Postal Service is
                            unable to provide proof of delivery, the Postal Service could
                            be liable to reimburse consignees for the value of
                            lost/missing shipments. The longer consignees’ past due
                            accounts remain unpaid, the more interest income the
                            Postal Service forfeits. Our audit identified $310,608 in
                            questioned costs and $67,337 in unrecoverable revenue,
                            which we will report in our Semiannual Report to Congress.




                                             i
Stamps on Consignment Program                                                  DR-AR-07-003




 Summary of                 We recommended the Vice President, Delivery and Retail,
 Recommendations            direct the Manager, Retail Service Network and Access
                            Management, to assess the need to adjust ABN’s
                            accountability for selected transactions and notify the Eagan
                            Accounting Service Center (ASC); request ABN officials to
                            follow key contract provisions; and develop an action plan to
                            timely approve and process future adjustments to ABN’s
                            stamp accountability. Further, we recommended the Vice
                            President request ABN officials to inform consignees of the
                            importance of signing for stamp shipments to minimize proof
                            of delivery deficiencies. We also recommended the Vice
                            President direct management to explore ideas that will
                            encourage consignees to make timely payments, and
                            request ABN officials to pay the Postal Service for accounts
                            that have been past due (including the $187,582 past due)
                            for at least 60 days.

                            We also recommended the Vice President direct the
                            Manager, Headquarters Delivery Operations, to coordinate
                            with area delivery supervisors to ensure delivery scanning
                            and signature confirmation training is provided for delivery
                            personnel at postal facilities and delivery supervisors are
                            trained in monitoring proof of delivery errors.

 Summary of                 Management agreed with our findings and
 Management’s               recommendations, including the $310,608 in questioned
 Comments                   costs and $67,337 in unrecoverable revenue. Management
                            stated that by the end of the third quarter of fiscal year
                            (FY) 2007, they would review the transactions and make
                            appropriate adjustments. Management stated that revisions
                            will be made to prevent future problems and to ensure ABN
                            and Eagan ASC officials completely understand the contract
                            provisions and the actions expected of them.

                            Management stated that by the end of the third quarter of
                            FY 2007, they would provide training to supervisors and
                            delivery personnel to address proper scanning and
                            signature capture for appropriate products and services.
                            Further, management plans to review consignee
                            communications to improve the timeliness of consignee
                            payments to shipments delivery.




                                             ii
Stamps on Consignment Program                                                 DR-AR-07-003




                            Management also stated that by the end of the third quarter
                            of FY 2007, they would review consignee communications
                            to improve the timeliness of consignee payments and will
                            jointly explore ideas or procedures to improve the timeliness
                            of consignee payments. In addition, management planned
                            to explore implementing more stringent procedures with
                            ABN and consignees to ensure timely payments.
                            Management’s comments, in their entirety, are included in
                            Appendix F.

 Overall Evaluation of      Management’s comments are responsive to our
 Management’s               recommendations. Management’s planned actions should
 Comments                   correct the issues identified in the findings.




                                            iii
Stamps on Consignment Program                                                             DR-AR-07-003



                                       INTRODUCTION
    Background                 The U.S. Postal Service designed the national Stamps on
                               Consignment (SOC) Program to provide postage stamps to
                               commercial retail outlets and financial institutions for sale to
                               the general public. This includes stamps sold over-the-
                               counter and through Automated Teller Machines. The
                               program provides a convenient method of purchasing
                               stamps to household customers who prefer to combine their
                               stamp purchases with retail shopping and banking. xxx xxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                               The SOC Program is currently under the control of the
                               Retail Service Network Access Management Program
                               Office under the Vice President, Delivery and Retail. The
                               Postal Service has contracted with American Banknote
                               Company (ABN) in Columbia, Tennessee, to act as a
                               representative and provide marketing, customer service,
                               and fulfillment functions for the SOC Program.

                               ABN distributes stamps to more than xxxxx consignees,
                               although Postal Service Headquarters, Delivery and Retail,
                               retains accountability for all stamps and responsibility for
                               monitoring inventory. ABN sends stamp shipments xxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxx1 and shipments xxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxx2 xxxxxxx.

                               The SOC Program lets consignees sell stamps to their
                               customers at post office prices in more than xxxxxx
                               locations. The Postal Service’s contract with ABN requires
                               consignees to pay the Postal Service xxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. xxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxx All consignees who receive stamp
                               stock are required to remit payments xxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

1
 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
2
 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                   1
Stamps on Consignment Program                                                                DR-AR-07-003



    Objective, Scope, and       Our objective was to determine whether the Postal Service
    Methodology                 properly managed the national SOC Program. Specifically,
                                we determined whether: (1) Postal Service officials properly
                                accounted for stamp inventory under consignment with
                                ABN, (2) Postal Service personnel confirmed delivery of
                                stamp stock inventory to consignees, and (3) consignees
                                made timely payments for stamps received.

                                We conducted a wall-to-wall physical inventory count of
                                stamps at ABN’s facility in Columbia, Tennessee, in October
                                2006, to determine whether Postal Service officials properly
                                accounted for stamp inventory. We reviewed and analyzed
                                inventory receipts, shipments, and adjustments, including
                                returns, refunds and destructions. We interviewed program
                                officials at Postal Service Headquarters and ABN officials in
                                Trevose, Pennsylvania. We also interviewed Postal Service
                                officials at the Eagan Accounting Service Center (ASC) and
                                the Stamp Distribution Center in Kansas City, Missouri.

                                We obtained and reviewed monthly data regarding proof of
                                delivery errors for stamp stock shipped to consignees to
                                determine whether Postal Service officials confirmed
                                delivery of stamp stock inventory to consignees. ABN
                                prepares its delivery and signature confirmation report from
                                their shipping records and data obtained directly from the
                                Postal Service tracking system. 3

                                We analyzed the delivery and signature confirmation report
                                to determine the areas, districts, and units that had the most
                                proof of delivery errors. The Pacific Area had the highest
                                occurrences of proof of delivery errors. The Great Lakes
                                Area had the 4th highest occurrence of proof of delivery
                                errors. We selected two districts and four units in both the
                                Pacific and Great Lakes areas and interviewed delivery
                                personnel in order to determine the cause of the proof of
                                delivery errors. (See Appendix B.)




3
 This information is based on xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.




                                                    2
Stamps on Consignment Program                                                                          DR-AR-07-003




                                    For the Pacific Area, we interviewed delivery personnel at
                                    the xxxxxxx and xxxxxxxx units within the xxxxxxxxxxxxxxxx
                                    and the xxxxxxxxxxxx and xxxxxxxx units within the xxxxx
                                    xxxxxxxxxxxx. For the Great Lakes Area, we interviewed
                                    delivery personnel at the xxxxxxxx and xxxxxxxxxxxxx units
                                    within the xxxxxxxxxxxxxxxx and xxxxxxxx and xxxxxxxxxxx
                                    units within the xxxxxxxxxxxxxxxxxxxxxxxxxx. We analyzed
                                    proof of delivery errors at the four district offices mentioned
                                    above and selected eight delivery units that displayed the
                                    highest numbers and values of proof of delivery deficiencies
                                    in delivering SOC packages.

                                    To determine whether consignees made timely payments
                                    for stamps received, we obtained ABN’s monthly aging
                                    charts from October 2005 through November 2006. We
                                    also interviewed ABN officials regarding timely payments.
                                    We calculated forfeited interest on one account4 from
                                    October 2005 through November 2006. (See Appendix D.)

                                    We conducted this audit from July 2006 through
                                    March 2007 in accordance with generally accepted
                                    government auditing standards and included such tests of
                                    internal controls as we considered necessary under the
                                    circumstances. We relied on data obtained from ABN and
                                    Postal Service database systems. We did not directly audit
                                    the systems, but performed a limited data integrity review to
                                    support our data reliance. We discussed our observations
                                    and conclusions with management officials on January 22,
                                    2007, and included their comments where appropriate.

    Prior Audit Coverage            The U.S. Postal Service Office of Inspector General (OIG)
                                    has issued two audit reports related to our audit objectives.

                                    Fiscal Year 2006 Financial Installation Audit (Report
                                    Number FF-AR-06-186, dated June 6, 2006). The report
                                    identified $186,303 in interest lost due to uncollected
                                    revenue because unit management did not require a
                                    consignee to make payment for stamps received in
                                    June 2002 (and valued at $1.9 million) until January 2006.
                                    The unit did not require customers to pay for stamps
                                    received as a result of a rate change until the next rate
4
 ABN system limitations made it necessary to query each payment individually (some consignees make payments
several times per week). However, individual payments were not applied to single invoices. In order to calculate
forfeited interest, a separate interest calculation had to be made for each invoice to which the payment was applied.




                                                          3
Stamps on Consignment Program                                                                        DR-AR-07-003



                                   change occurred. Management agreed with our
                                   recommendation to take appropriate action regarding
                                   deviations from Postal Service stamp consignment policies
                                   and ensure employees follow the procedures outlined in
                                   Management Instruction AS-710-1999-2, Unauthorized
                                   Contractual Commitments.

                                   Stamp Accountability Balances for the American Banknote
                                   Company (Report Number FF-AR-04-269, dated
                                   August 31, 2004). The report stated that, generally, ABN
                                   properly controlled and accounted for stamps in accordance
                                   with contract terms and payments to the Postal Service
                                   were accurate. However, the report noted that Postal
                                   Service accounting records overstated ABN’s stamp
                                   accountability by approximately $17 million5 because they
                                   did not always receive or record accounting transactions
                                   when making inventory adjustments to stamp accountability
                                   balances.

                                   The report also noted that nine consignees disputed receipt
                                   of stamp shipments valued at approximately $191,000
                                   because receiving documents were either missing
                                   signatures or had invalid signatures or there were no
                                   records available to verify the consignees received the
                                   stamps.

                                   Management agreed with our recommendation to reconcile
                                   the accountability difference and make appropriate
                                   adjustments. Management stated the Eagan ASC, in
                                   coordination with Corporate Accounting, would develop and
                                   issue guidance for recording accounting entries for
                                   inventory adjustments and develop a reconciliation process
                                   for shipments and payments. Management asked the
                                   General Counsel’s office to determine ABN’s liability for the
                                   $191,000 in missing stamp shipments.




5
  Accounting records at the Stamps Fulfillment Services showed ABN’s accountability as $172 million, but a physical
inventory of stamps on hand and a review of accounting records at the contractor’s facility showed a total
accountability of $155 million.




                                                         4
Stamps on Consignment Program                                                 DR-AR-07-003



                                   AUDIT RESULTS
 Proper Management          Overall, Postal Service officials properly managed the
 of Stamps on               national SOC Program. Specifically, Postal Service officials
 Consignment                properly accounted for stamp inventory under consignment
 Program                    with ABN. However, ABN deducted some unapproved
                            transactions from their stamp accountability. In addition,
                            delivery personnel did not always confirm proof of delivery
                            of stamp stock to consignees and some consignees did not
                            always make timely payments for stamp stock received.

                            These conditions existed primarily because ABN and Postal
                            Service officials did not fully comply with provisions of the
                            SOC contract because they did not understand the contract
                            modification to account for lost/missing shipments.
                            Additionally, Postal Service employees did not always follow
                            the prescribed procedures to obtain proof of delivery.
                            Finally, consignees had no incentive to make timely
                            payments for stamp stock.

                            When officials do not follow contract provisions that address
                            accounting for stamp inventory under consignment, they
                            maintain stamp accountability that reflects inaccurate
                            balances. When stamp shipments to consignees do not
                            have proper proof of delivery and the Postal Service is
                            unable to provide proof of delivery, the Postal Service could
                            be liable to reimburse consignees for the value of
                            lost/missing shipments. The longer consignees’ past due
                            accounts remain unpaid, the more interest income the
                            Postal Service forfeits.

 Stamp Accountability       Postal Service officials properly accounted for stamp
                            inventory under consignment with ABN. However, ABN
                            deducted 44 transactions (totaling $72,453) from their
                            stamp accountability without proper approval by the SOC
                            Program Manager from February through October 2006.
                            These transactions represent lost/missing, damaged, and
                            short shipments.

                            In addition, Eagan ASC personnel accepted and processed
                            some of the unapproved deductions when reconciling ABN’s
                            stamp accountability in the Postal Service’s accounting
                            records. Specifically, Eagen ASC officials expensed
                            $33,453 of the $72,453 unapproved deductions without prior
                            approval from the SOC Program Manager.




                                             5
Stamps on Consignment Program                                                  DR-AR-07-003




                            This occurred because ABN officials, the SOC Program
                            Manager, and Eagan ASC officials did not fully comply with
                            provisions of the SOC contract. ABN and Postal Service
                            officials stated they did not understand the contract
                            requirements to account for lost/missing shipments. ABN
                            did not submit quarterly reports listing lost/missing,
                            damaged, and short shipments to the SOC Program
                            Manager for approval. Instead, ABN deducted the
                            unapproved transactions from their stamp accountability
                            and included the transactions in the monthly inventory
                            reports, which they submitted directly to the Eagan ASC.
                            The Eagan ASC officials expensed the deductions after
                            receiving supporting documentation from ABN, but they did
                            so without SOC Program Manager approval.

                            During the audit, Eagan ASC officials stopped expensing
                            unapproved deductions pending appropriate guidance from
                            the SOC Program Manager. Eagan ASC officials indicated
                            they will reverse any or all of the previously expensed items,
                            if appropriate, upon receiving direction from the SOC
                            Program Manager.

                            The SOC contract between the Postal Service and ABN
                            requires ABN to submit – on a quarterly basis – a report that
                            details lost/missing, damaged, and short shipments to the
                            SOC Program Manager. The report should include
                            supporting documentation that indicates the transactions
                            have been fully investigated.

                            The SOC Program Manager is required to review the report
                            along with supporting documentation and provide a written
                            decision to ABN regarding each transaction within 14 days
                            after receipt. In addition, the SOC Program Manager is
                            required to forward a copy of the written decision to the
                            Eagan ASC. The Eagan ASC is required to use the
                            program manager’s written decision to adjust the Postal
                            Service-maintained ABN stamp accountability records and
                            contact ABN to adjust their records, accordingly.

                            When officials do not follow contract provisions that address
                            accounting for stamp inventory under consignment, their




                                             6
Stamps on Consignment Program                                                                     DR-AR-07-003



                                  stamp accountability is inaccurate. We consider the entire6
                                  $72,453 in unapproved deductions a questioned cost.

    Recommendation                We recommend the Vice President, Delivery and Retail,
                                  direct the Manager, Retail Service Network and Access
                                  Management, to:

                                      1. Review and determine whether American Banknote
                                         Company’s (ABN) accountability should be adjusted
                                         by the 44 transactions (totaling $72,453) and provide
                                         a written decision to ABN and the Eagan Accounting
                                         Service Center regarding each transaction.

    Management’s                  Management agreed with our findings, recommendations,
    Comments                      and $7,869 in questioned costs. Management stated that
                                  by the end of the third quarter of FY 2007, they would
                                  review the transactions and make necessary adjustments
                                  and revisions to prevent future problems.

    Recommendation                    2. Request that American Banknote officials follow
                                         contract provisions for approving lost/missing,
                                         damaged, and short shipments from their stamp
                                         accountability.

    Management’s                  Management agreed with the recommendation and stated
    Comments                      that by the end of the third quarter of FY 2007, they would
                                  review current processes and make necessary revisions to
                                  ensure ABN completely understands contract provisions.

    Recommendation                    3. Develop an action plan with Eagan Accounting
                                         Service Center officials to approve and process
                                         future adjustments to American Banknote’s stamp
                                         accountability.

    Management’s                  Management agreed with the recommendation and stated
    Comments                      that by the end of the third quarter of FY 2007, they would
                                  review current processes and make necessary revisions to
                                  ensure Eagan ASC completely understands contract
                                  provisions.


6
  The unapproved deductions included $64,584 related to lost/missing shipments that are further discussed and
included in the questioned costs in the next section (Delivery and Signature Confirmations) and Appendix C. The
remaining unapproved deductions, $7,869, were related to damaged/short shipments and are separately claimed as
unsupported questioned costs as described in Appendix A.




                                                       7
Stamps on Consignment Program                                                              DR-AR-07-003




 Evaluation of              Management’s comments are responsive to
 Management’s               recommendations 1, 2, and 3. Management’s planned
 Comments                   actions should correct the issues identified in the findings.

 Delivery and Signature     Postal Service delivery personnel did not always obtain
 Confirmations              proper proof of delivery for stamp stock ABN shipped to
                            consignees. Specifically, delivery personnel did not obtain
                            proof of delivery for 58,232 packages xxxxxxxxxx
                            xxxxxxxxxxxxxxx ABN shipped to consignees in FY 2006.
                            Of these, 10,289 packages xxxxxxxxxxxxxxxxxxxxx involved
                            not obtaining Delivery Confirmation™, and 47,943 packages
                            xxxxxxxxxxxxxxxxxxxxxx involved not obtaining signature
                            confirmations.

                                        Chart 1. Total Number of Packages with
                                                 Proof of Delivery Errors



                                                Total Errors - 58,232


                                                                                  10,289
                                Total Delivery Errors
                                Total Signature Errors
                                                             47,943
                                        Source: ABN Delivery and Signature Confirmation
                                                  FY 2006 Problems Reports




                            The value of shipments that did not have proper proof of
                            delivery xxxxxxxxxxxxxxxx compared to the value of total
                            stamp shipments to consignees in FY 2006 xxxxxxxxxxxxxx
                            was approximately 13.26 percent. Four of the nine area
                            offices had percentages that exceeded the average of
                            13.26 percent, as shown in chart 2.




                                                    8
Stamps on Consignment Program                                                                      DR-AR-07-003




                                        Chart 2. Proof of Delivery Errors by Area




                                                                        9.23%          17.18%
                                 Pacific
                                                               10.35%
                                 Northeast
                                 New York Metro
                                 Great Lakes                                                   15.03%
                                                           13.00%
                                 Southwest
                                 Southeast
                                 Capital Metro               13.02%                           14.53%
                                 Western
                                 Eastern                            13.15%           13.92%

                                Source: ABN Delivery and Signature Confirmation FY 2006 Problems Reports


                            In September 2006, the Postal Service reimbursed
                            consignees approximately $247,789 for lost/missing
                            shipments occurring in FYs 2001 through 2005 because
                            there was no proof of delivery. This included $61,235 for
                            claims filed in FY 2005. In addition, consignees submitted
                            claims totaling $68,136 for lost/missing shipments from
                            October 1, 2005 through October 31, 2006.

                            Delivery personnel did not properly enter the recipients’
                            names or obtain signature confirmation because they were
                            not aware of the service requirements and did not scan
                            packages when in a hurry to deliver them. Postal Service
                            delivery personnel at four of the eight units we reviewed
                            stated they did not properly enter the recipients’ names or
                            obtain signature confirmation because they were not aware
                            of the service requirements.

                            Delivery personnel stated they would obtain recipients’
                            signatures for packages, but they were not entering the
                            recipients’ names in the scanner. They explained they did
                            not know they were to enter the recipient’s name and
                            entered the company’s name into the scanner instead. In
                            one instance, a delivery unit manager also stated she was
                            unaware of this requirement.

                            Delivery personnel also stated they are often asked to wait
                            for someone who is willing to sign for signature confirmation




                                                    9
Stamps on Consignment Program                                                               DR-AR-07-003



                                packages. When this occurs, carriers are delayed and fall
                                behind in their delivery schedules.

                                Furthermore, delivery personnel at these units indicated
                                they often hurry through deliveries and sometimes forget to
                                perform final delivery scans. Although managers and
                                supervisors at delivery units have the capability to monitor
                                missed delivery scans through the Integrated Intelligent
                                Management System (IIMS),7 they do not consistently do so
                                because of time constraints.

                                The Postal Service could be liable for claims for lost/missing
                                shipments if there is no proof of delivery information
                                provided from their Track and Confirm or Product Tracking
                                System. The national SOC contract between the Postal
                                Service and ABN requires ABN to use the Postal Service
                                exclusively to ship all items to consignees. xxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxx

                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxx.8 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

7
 IIMS records missed delivery scans.
8
 Handbook PO 610, Signature Capture and Electronic Record Management: Manager’s Guide to Standard
Operating Procedures




                                                   10
Stamps on Consignment Program                                                                     DR-AR-07-003




                                  When stamp shipments to consignees do not have the
                                  proper proof of delivery, the Postal Service depends on the
                                  honesty of consignees to confirm receipt of delivery. If
                                  consignees indicate they did not receive the shipments and
                                  the Postal Service is unable to provide proof of delivery, the
                                  Postal Service could be liable to reimburse consignees for
                                  the value of lost/missing shipments.

                                  As previously stated, xxxxxxxxxxxxxxxxxxxxxxxxxxxx in
                                  stamp stock shipped to consignees in FY 2006 did not have
                                  proper proof of delivery. Therefore, the Postal Service is at
                                  risk to pay claims from consignees if these items are
                                  reported lost or stolen.

                                  Consignees submitted claims totaling $61,235 for
                                  lost/missing shipments during FY 2005 and $68,136 for
                                  lost/missing shipments from October 1, 2005 through
                                  October 31, 2006. The aggregate cost of $129,371 is an
                                  unrecoverable questioned cost.

                                  If management makes delivery personnel aware of the
                                  importance of delivery and signature confirmation and
                                  provides additional training, we estimate the Postal Service
                                  could avoid $173,368 in costs for FYs 2007 and 2008
                                  ($86,684 for each year). The costs the Postal Service can
                                  avoid in FYs 2007 and 2008 are recoverable questioned
                                  costs. (See Appendix C.)

    Recommendation               We recommend the Vice President, Delivery and Retail,
                                 direct the Manager, Headquarters Delivery Operations, to:

                                      4. Coordinate with area delivery supervisors to ensure
                                         delivery scanning and signature confirmation training
                                         is provided to delivery personnel at postal facilities to
                                         minimize proof of delivery deficiencies.

    Management’s                 Management agreed with our finding, recommendation, and
    Comments                     $302,739 in questioned costs.9 Management stated that by
                                 the end of the third quarter of FY 2007, they would provide
                                 training to delivery personnel.


9
  Questioned costs of $302,739 are comprised of $129,371 in unrecoverable questioned cost and $173,368 in
recoverable questioned costs.




                                                       11
Stamps on Consignment Program                                                   DR-AR-07-003




 Recommendation                 5. Coordinate with area delivery supervisors to ensure
                                   training is provided to delivery supervisors in
                                   monitoring proof of delivery errors.

 Management’s              Management agreed with the recommendation and stated
 Comments                  that by the end of the third quarter of FY 2007, they would
                           provide training to supervisors.

 Evaluation of             Management’s comments are responsive to
 Management’s              recommendations 4 and 5. Management’s planned actions
 Comments                  should correct the issues identified in the finding.

 Recommendation            We recommend the Vice President, Delivery and Retail,
                           direct the Manager, Retail Service Network and Access
                           Management, to:

                                6. Request American Banknote officials to inform
                                   consignees of the importance of signing for stamp
                                   shipments in a timely manner to minimize proof of
                                   delivery deficiencies.

 Management’s              Management agreed with the recommendation and stated
 Comments                  that by the end of the third quarter of FY 2007, they would
                           review consignee communications and develop additional
                           communications, if necessary, to improve timely responses.

 Evaluation of             Management’s comments are responsive to
 Management’s              recommendation 6. Management’s planned corrective
 Comments                  actions should correct the issues identified in the finding.

 Payments From             Consignees did not always make timely payments for
 Consignees                stamps received. As of November 30, 2006, 17 accounts
                           were more than 60 days past due, with a combined balance
                           of approximately $187,582 owed to the Postal Service.
                           These past due accounts represented less than 1 percent
                           ($77,122,124) of total accounts receivable as of
                           November 30, 2006. However, one of the accounts had a
                           revolving deficient balance that was at least 60 days past
                           due each month beginning in October 2005. The past due
                           accounts remain active and the consignees continue to
                           order stamps from the Postal Service through ABN. (See
                           Appendix E.)




                                             12
Stamps on Consignment Program                                                             DR-AR-07-003




                               According to ABN officials, some consignees paid late
                               without any reasonable explanation. Others claimed they
                               did not receive stamp shipments, were waiting for a credit to
                               be applied to their account, or were in the process of
                               returning stamp stock. Since the SOC contract does not
                               provide for the collection of interest on late payments, if a
                               consignee chooses to pay late, the Postal Service must
                               forfeit any interest that would have accumulated on late
                               payments.

                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                               xxxxxxxxxxxxxxxxxxxxxxxxxxx10 ABN officials stated that
                               consignees generally do pay their account balances.
                               However, payments are not always timely and one
                               consignee in particular chronically pays late. Although ABN
                               officials actively pursue payment once an account is over 30
                               days past due (including calling and faxing the consignee
                               and filing claims forms), consignees do not have an
                               incentive to pay on time. ABN stated that, ultimately, the
                               only advantage they possess is the option of dropping the
                               late-paying consignee from the program. This, however,
                               would result in the loss of an alternate access channel for
                               the Postal Service to sell its products.

                               The longer consignees’ past due accounts remain unpaid,
                               the more interest income the Postal Service forfeits. We
                               computed forfeited interest in the amount of $67,337
                               between October 1, 2005, and November 30, 2006, for the
                               account that maintained a revolving deficient balance. The
                               $67,337 forfeited interest is unrecoverable revenue. (See
                               Appendix D.)

 Recommendation                We recommend the Vice President, Delivery and Retail,
                               direct the Manager, Retail Service Network and Access
                               Management, to:

                                   7. Explore ideas for developing procedures that ensure
                                      consignees make timely payments.

10
  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  13
Stamps on Consignment Program                                                  DR-AR-07-003




 Management’s              Management agreed with our findings, recommendations,
 Comments                  and $67,337 in unrecoverable revenue. Management stated
                           that by the end of the third quarter of FY 2007, they would
                           explore and evaluate new ideas or procedures which could
                           be implemented to improve the timeliness of consignee
                           payments.

 Recommendation                 8. Request American Banknote officials pay the Postal
                                   Service for accounts that have been past due for at
                                   least 60 days, including the past due $187,582.

 Management’s              Management agreed with the recommendation and stated
 Comments                  that by the end of the third quarter of FY 2007, they would
                           take action that is appropriate for each individual situation
                           and explore the possibility of more stringent procedures to
                           ensure timely payments.

 Evaluation of             Management’s comments are responsive to
 Management’s              recommendations 7 and 8. Management’s planned
 Comments                  corrective actions should address the issues identified in the
                           findings.




                                            14
Stamps on Consignment Program                                                DR-AR-07-003




                                      APPENDIX A

        CALCULATION OF UNSUPPORTED QUESTIONED COSTS

            Number of
           Transactions                    Description               Amount
                4               Delivered Damaged and Short         $ 7,869.00
                40              Undelivered Lost                     64,584.00

                 44             TOTAL                               $72,453.00

The OIG determined ABN deducted 44 transactions (totaling $72,453) from their stamp
accountability without proper approval by the SOC Program Manager between February
and October 2006. These transactions represent lost/missing, damaged, and short
shipments.

Of the total, lost/missing shipments accounted for $64,584 (which are unrecoverable
questioned costs and are addressed in the Delivery and Signature Confirmations
section of this audit report and Appendix C) and $7,869 was for damaged shipments.
ABN and Eagan Postal Service officials did not follow contract reporting provisions to
process transactions for stamp accountability records. We consider the unapproved
deductions totaling $7,869 unsupported questioned costs.

We will report $7,869 as unsupported questioned costs in our Semiannual Report to
Congress.




                                            15
Stamps on Consignment Program                                                              DR-AR-07-003



                                          APPENDIX B

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
          xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                                           xxxxxxxxxx
                                                          xxxxxxxx       xxxxxxxxxxx      xxxxxxxxxxx
                                                          xxxxxxxx            xx             xxxxxxxx
                                                          xxxxxxxx        xxxxxxxxx      xxxxxxxxxxxxx
                                                       xxxxxxxxxxxxx          xx        xxxxxxxxxxxxxxx
  xxxx                                                   xxxxxxxxx        xxxxxxxxxx         xxxxxxxx
 xxxxxx                   xxxxxxxxxxx                      xxxxxxx        xxxxxxxxxx        xxxxxxxxx
 xxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx              Xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx            xxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        xxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx               xxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxxx    xxxxxxxxxxxx             xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx

xxxxxxxxx   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx             xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx         xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx            xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx               xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxxx     xxxxxxxxxxx             xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx

 xxxxxxxx   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx               xxx
   xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx         xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx            xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx               xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx           xxxxxxxxxx     xxxxxxxxxxx             xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx

  xxxxx     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx             xxxxx
  xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx         xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx            xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx               xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxxx    xxxxxxxxxxxx             xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx

xxxxxxxxx   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx             xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx         xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx            xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx               xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  16
Stamps on Consignment Program                                                                 DR-AR-07-003



                                                                                             xxxxxxxxxx
                                                           xxxxxxxx       xxxxxxxxxxx       xxxxxxxxxxx
                                                           xxxxxxxx             xx             xxxxxxxx
                                                           xxxxxxxx        xxxxxxxxx       xxxxxxxxxxxxx
                                                        xxxxxxxxxxxxx           xx        xxxxxxxxxxxxxxx
  xxxx                                                    xxxxxxxxx        xxxxxxxxxx          xxxxxxxx
 xxxxxx                   xxxxxxxxxxx                       xxxxxxx        xxxxxxxxxx         xxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx             xxxxxxxxxx     xxxxxxxxxxx               xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx

xxxxxxxxx   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx              xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx             xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        xxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxxx    xxxxxxxxxxxx               xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx

 xxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                xxx
  xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx             xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx         xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx            xxxxxxxxxx     xxxxxxxxxxx               xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

 xxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx              xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx             Xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        xxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx           xxxxxxxxxxx    xxxxxxxxxxxx               xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxx

 xxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                xxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx             xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx         xxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx            xxxxxxxxxx     xxxxxxxxxxx                xxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx

  xxxxx     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx             xxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx         xxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx            xxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx               xxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx          xxxxxxxxxxxx    xxxxxxxxxxxx               xxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

               xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                   17
Stamps on Consignment Program                                                                          DR-AR-07-003



                                                 APPENDIX C

           CALCULATION OF UNRECOVERABLE AND RECOVERABLE
                          QUESTIONED COSTS
The OIG identified consignee claims totaling $61,235 for lost/missing shipments during
FY 2005 and $68,136 for lost/missing shipments from October 1, 2005, through
October 31, 2006. The aggregate costs of $129,37111 are unrecoverable questioned
costs.

If management provides delivery personnel additional training, we estimated the Postal
Service would avoid $173,368 in costs for FYs 2007 and 2008 ($86,684 for each year),
which are recoverable questioned costs.

The OIG limited its consignee claims calculation to the last 2 fiscal years and projected
estimated claims 2 fiscal years forward.

The OIG made the following assumptions in their calculation:

       •   The calculations included consignee claims that were identified as lost or missing
           and unrelated to thefts.

       •   The calculated percentage of total lost/missing shipments was estimated using
           the Postal Service forecasts for both FYs 2007 and 2008.

       •   The percentage of lost shipments was estimated using average rate of .0075
           percent from FYs 2002 through 2006 to forecast FYs 2007 and 2008.

We will report $129,371 of unrecoverable questioned costs and $173,368 of
recoverable questioned costs in our Semiannual Report to Congress.




11
     Of this amount, $64,584 was previously discussed in the Stamp Accountability finding and in Appendix A.




                                                           18
Stamps on Consignment Program                                                DR-AR-07-003



                                    APPENDIX D

              CALCULATION OF UNRECOVERABLE REVENUE

The OIG identified $67,337 in unrecoverable revenue in the form of forfeited interest
attributable to a single consignee between October 1, 2005, and November 30, 2006.
The OIG limited its forfeited interest calculation to a single consignee because the
design of ABN’s tracking system made it necessary to query each payment individually
(some consignees make payments several times per week). However, individual
payments are not applied to single invoices. In order to calculate forfeited interest, a
separate interest calculation had to be made for each invoice to which the payment was
applied.

The OIG made the following assumptions in their calculation:

   •   Payments that were made to the Postal Service and past their due dates resulted
       in forfeited interest.

   •   The Postal Service's cost of borrowing between October 1, 2005, and
       November 30, 2006, was 5.25 percent.

   •   Forfeited interest was calculated using the formula "1.0525(x/365) * payment
       amount - payment amount," where "x" was the number of days the payment was
       late. E.g., if an invoice listed a due date of October 1, 2005, and a $1000
       payment was made toward that invoice on October 6, 2005, the forfeited interest
       calculation would be “1.0525(5/365) * 1000 - 1000.”

   •   A payment was late if the transaction date for the payment was greater than the
       due date listed on the invoice.

   •   The forfeited interest calculation was applied to every late payment amount
       allocated to an invoice between October 1, 2005, and November 30, 2006.

   We will report $67,337 in unrecoverable revenue in our Semiannual Report to
   Congress.




                                           19
Stamps on Consignment Program                                                            DR-AR-07-003



                                         APPENDIX E

                      CONSIGNEE ACCOUNTS PAST DUE
                            FOR OVER 60 DAYS
                                                                                Total Amount
                                                                                  Owed to
         Consignee                                               Over 90           Postal
         by Number      Account Number        Over 60 Days        Days             Service
             1                  xxxxxx              $56,884.80   $53,094.00       $109,978.80

             2                   xxxx                42,900.00   (8,093.28)         34,806.72

             3                   xxx                 21,090.00     2,200.00         23,290.00

             4                  xxxxxx               15,795.00   (7,669.30)          8,125.70

             5                   xxxx                     0.00     1,601.00          1,601.00

             6                   xxxx                     0.00     1,503.00          1,503.00

             7                   xxx                  1,404.00           0.00        1,404.00

             8                   xxxx                 1,404.00     (159.84)          1,244.16

             9                   xxxx                  975.00            0.00         975.00

            10              xxxxxxx                       0.00      900.00            900.00

            11                   xxxx                     0.00      780.00            780.00

            12                   xxxx                  780.00            0.00         780.00

            13                   xxxx                  780.00            0.00         780.00

            14                  xxxxxx                 780.00            0.00         780.00

            15                  xxxxxx                    0.00      491.40            491.40

            16                    xx                      0.00          82.51           82.51

            17                   xxxx                     0.00          59.94           59.94

           Total                                $142,792.80      $44,789.43       $187,582.23

                            Source: ABN Aging Chart for November 2006




                                               20
Stamps on Consignment Program                        DR-AR-07-003



                 APPENDIX F. MANAGEMENT’S COMMENTS




                                21
Stamps on Consignment Program        DR-AR-07-003




                                22
Stamps on Consignment Program        DR-AR-07-003




                                23
Stamps on Consignment Program        DR-AR-07-003




                                24
Stamps on Consignment Program        DR-AR-07-003




                                25
